<html>
<title> - RENOMINATION OF CHARLES D. SNELLING TO BE A MEMBER OF THE METROPOLITAN WASHINGTON AIRPORTS AUTHORITY</title>
<body><pre>[Senate Hearing 110-116]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-116
 
RENOMINATION OF CHARLES D. SNELLING TO BE A MEMBER OF THE METROPOLITAN 
                     WASHINGTON AIRPORTS AUTHORITY

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 24, 2007

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

                     U.S. GOVERNMENT PRINTING OFFICE

36-098 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001






















       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 GORDON H. SMITH, Oregon
MARIA CANTWELL, Washington           JOHN ENSIGN, Nevada
FRANK R. LAUTENBERG, New Jersey      JOHN E. SUNUNU, New Hampshire
MARK PRYOR, Arkansas                 JIM DeMINT, South Carolina
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
CLAIRE McCASKILL, Missouri           JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
   Christine D. Kurth, Republican Staff Director and General Counsel
Kenneth R. Nahigian, Republican Deputy Staff Director and Chief Counsel





















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 24, 2007.....................................     1
Statement of Senator Inouye......................................     1

                               Witnesses

Snelling, Hon. Charles Darwin, Renominated to be a Member of the 
  Metropolitan Washington Airports Authority.....................     1
    Prepared statement...........................................     3
    Biographical information.....................................     4
Specter, Hon. Arlen, U.S. Senator from Pennsylvania..............    10
    Prepared statement...........................................    10


RENOMINATION OF CHARLES D. SNELLING TO BE A MEMBER OF THE METROPOLITAN 
                     WASHINGTON AIRPORTS AUTHORITY

                              ----------                              


                         THURSDAY, MAY 24, 2007

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:04 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Daniel K. 
Inouye, Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    The Chairman. Today we will consider the nomination of Mr. 
Charles D. Snelling to be a Member of the Metropolitan 
Washington Airports Authority.
    Mr. Snelling has come before us previously and serves on 
the Authority today. By all accounts, Mr. Snelling has been 
regarded as highly competent and effective during his tenure 
with the Metropolitan Washington Airports Authority.
    I look forward to hearing about your experiences working on 
the Authority and any views you may have about how Congress can 
help ensure the success of the mission of the Authority.
    Mr. Snelling?
    Mr. Snelling. Thank you.
    The Chairman. It may please you to know that we have 
received no objection. It seems like everyone loves you, and 
they approve of you, or at least----

STATEMENT OF HON. CHARLES DARWIN SNELLING, RENOMINATED TO BE A 
    MEMBER OF THE METROPOLITAN WASHINGTON AIRPORTS AUTHORITY

    Mr. Snelling. It does please me to know that, Mr. Chairman. 
And I thank you very much for that warm and fine invitation. 
It's--I'm coming here often enough so I'm beginning to feel 
comfortable.
    [Laughter.]
    Mr. Snelling. I am Charles Snelling, the President's 
nominee to a second term as Member of the Metropolitan 
Washington Airports Authority Board of Directors. I am 
delighted to appear before you again.
    I was here last September, in 2006, in a hearing on my 
nomination to this same position. Although the Committee 
reported my nomination unanimously, the Senate did not act on 
its report, and the President nominated me again in January.
    The President appoints three directors of the Airports 
Authority, and the three of us are proud to be amongst the most 
active members of this 13-member board. We each chair a 
Committee that meets monthly. For 2 years, I served as Chairman 
of the Finance Committee, and I've recently been named Chairman 
of the new Planning and Construction Committee.
    As I have advised this Committee before, my prior 
experience on the board at Lehigh Valley Hospital, a billion-
dollar charity, has proved most helpful training for my service 
to the Airports Authority.
    Mr. Chairman, as most Senators use our airports, I think 
it's useful to mention briefly the major issues which are 
pressing on us:
    First, as you may be aware, the Airports Authority is about 
to assume the responsibility for the construction of the 
Metrorail extension that will connect the entire region with 
Dulles Airport, a project we will finance, in large part, with 
tolls from the Dulles Toll Road. We have been engaged in 
difficult negotiations over the price of the rail project, but 
have managed to agree on a contract that sets the price within 
the Federal Transit Administration efficiency standards. It now 
appears that we will soon be engaged in rail construction at 
the same time as airport construction. We relish the challenge.
    On the aviation side, our efforts are both to attract new 
services and to make sure our facilities are ready to handle 
the continuing growth. At Dulles, as you know, we're building 
an underground people mover, and the project is on schedule, 
and the trains should start running in 2009.
    We will continue to build out our master plan with an 
extension to the existing midfield terminals and the ultimate 
construction of parallel midfield terminals. Those new midfield 
terminals are still off in the future, but I'm confident that 
they will be built sooner than anyone might expect.
    At Reagan National, we're scrambling to build additional 
parking capacity to accommodate passenger growth caused by 
flights added over the last several years. As you may know, our 
garages are often full on Tuesdays, Wednesdays, and Thursdays.
    Traffic has been growing steadily at Reagan National, at 
18.5 million for the last 12 months, up 2.4 percent over the 
same period last year. At Dulles, there was a little decline 
for the same 12-month period, reflecting the sudden demise of 
Independence Air. But Dulles has, in fact, fully recovered. The 
month of March 2007 showed a 13.7-percent growth over March in 
2006. Our anticipation is that the number of Dulles passengers 
will continue to grow smartly. Total passengers for the 12-
month period were 23.6 million.
    More interesting than the numbers are the new services 
being introduced at Dulles. Thus far in 2007, we have new daily 
services to Beijing, Rome, Huntsville, and additional flights 
to Seoul and London. As the year goes on, we will have new 
service to Madrid, Panama City, Doha, Dublin, Rio de Janeiro, 
and Oklahoma City. Flights to Addis Ababa will double to four 
per week. Washington's air service is matching its significance 
as a world-class capital city.
    Mr. Chairman, it's just over 20 years since Congress agreed 
to turn over Dulles and National, the Metropolitan Washington 
Airports, to the independent Metropolitan Washington Airports 
Authority. In my opinion, this has proved to be a most wise and 
beneficial decision. I look forward to continuing the 
Authority's excellent record as we face the future, dealing 
with the ever-changing aviation world.
    Thank you for considering my nomination to the board of the 
Metropolitan Washington Airports Authority. I'd be very happy 
to answer any questions you might have, sir.
    [The prepared statement and biographical information of Mr. 
Snelling follow:]

Prepared Statement of Hon. Charles Darwin Snelling, Renominated to be a 
        Member of the Metropolitan Washington Airports Authority
    Mr. Chairman, Members of the Committee:
    I am Charles Snelling, the President's nominee to a second term as 
a Member of the Metropolitan Washington Airports Authority Board of 
Directors. I am delighted to appear before you again.
    I was last here in September 2006, in a hearing on my nomination to 
the same position. Although the Committee reported my nomination 
unanimously, the Senate did not act on its report, and the President 
nominated me again in January.
    The President appoints three Directors of the Airports Authority, 
and the three of us are proud to be among the most active members of 
the 13-member Board. We each chair a Committee that meets monthly. For 
2 years, I served as Chairman of the Finance Committee, and have 
recently been named Chairman of a new Planning and Construction 
Committee. As I have advised this Committee before, my prior experience 
on the Board of the Lehigh Valley Hospital, a billion-dollar charity, 
has proven most helpful training for my service on the Airports 
Authority.
    Mr. Chairman, as most Senators use our Airports, I think it useful 
to mention briefly the major issues pressing us. First, as you may be 
aware, the Airports Authority is about to assume responsibility for the 
construction of the Metrorail extension that will connect the entire 
region with Dulles Airport, a project we will finance in large part 
with tolls from the Dulles Toll Road. We have been engaged in difficult 
negotiations over the price of the rail project, but have managed to 
agree on a contract that sets a price within the Federal Transit 
Administration efficiency standards. It now appears that we will soon 
be engaged in rail construction at the same time as airport 
construction. We relish the challenge.
    On the aviation side, our efforts are both to attract new services 
and make sure our facilities are ready to handle the continuing growth. 
At Dulles, as you know, we are building an underground people mover; 
the project is on schedule, and the trains should start running in 
2009. We will continue to build out our master plan, with an extension 
to the existing midfield terminal, and the ultimate construction of 
parallel midfield terminals. Those new midfield terminals are still off 
in the future, but I am confident they will be built sooner than anyone 
now expects.
    At Reagan National, we are scrambling to build additional parking 
capacity to accommodate passenger growth caused by flights added over 
the last several years. As you may know, our garages are often full on 
Tuesdays, Wednesdays and Thursdays.
    Traffic has been growing steadily at Reagan National, at 18.5 
million for the last 12 months, up 2.4 percent over the same period 
last year. At Dulles, there has been a decline for the same 12-month 
period, still reflecting the sudden demise of Independence Air, but 
Dulles has nearly fully recovered: the month of March 2007 showed 13.7 
percent growth over March 2006. Our anticipation is that the number of 
Dulles passengers will continue to grow smartly. Total passengers for 
the 12-month period were 23.6 million.
    More interesting than the numbers are the new services being 
introduced at Dulles. Thus far in 2007, we have new daily services to 
Beijing, Rome, and Huntsville, and additional flights to Seoul and 
London. As the year goes on, we will have new services to Madrid, 
Panama City, Doha, Dublin, Rio de Janeiro, and Oklahoma City. Flights 
to Addis Ababa will double, to 4 per week. Washington's air service is 
matching its significance as a world-class capital city.
    Mr. Chairman, it is just over twenty years since the Congress 
agreed to turn over Dulles and National, the Metropolitan Washington 
Airports, to the independent Metropolitan Washington Airports 
Authority. In my opinion, this has proven a most wise and beneficial 
decision. I look forward to continuing the Authority's excellent record 
as we face the future, dealing with an ever-changing aviation world.
    Thank you for considering my renomination to the Board of the 
Metropolitan Washington Airports Authority. I will be happy to answer 
any questions.
                                 ______
                                 
                      a. biographical information
    1. Name: (Include any former names or nicknames used): Charles 
Darwin Snelling.
    2. Position to which nominated: Member [``Director''], Metropolitan 
Washington Airports Authority, an agency created by interstate compact 
between the Commonwealth of Virginia and the District of Columbia.
    3. Date of nomination: June 5, 2006.
    4. Address (List current place of residence and office addresses): 
Information not available to the public.
    5. Date and place of birth: January 26, 1931, Allentown, 
Pennsylvania.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Married March 21, 1951 to Adrienne Celeste Angeletti. She is 
        not employed.

        Adrienne Celeste Snelling II Sullivan, 55; Jonathan Commonfort 
        Snelling, 53; Marjorie Preston Snelling, 51; Elizabeth Hornor 
        Snelling Groner, 49; and Lesley Coates Snelling Bober, 46.

    7. List all college and graduate degrees. Provide year and school 
attended.

        Muhlenberg College, Allentown, Pennsylvania, September 1949-
        June 1951.

        Lehigh University, Bethlehem, Pennsylvania, September 1951-June 
        1954, B.S. in E.M.

    8. Employment Record: (List all post-undergraduate employment, and 
highlight all management-level jobs held and any non-managerial jobs 
that relate to the position for which you are nominated.)
    1954-1955, Assistant to the President, New York Transformer 
Company, Alpha, New Jersey. This staff position involved new product 
development and survey, and general technical and administrative 
management decisions.
    Since that time, I have been effectively self-employed.
    9. Government experience: (List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above, within the last 5 
years): Chairman, Pennsylvania Aviation Advisory Commission, 2000-2003.
    10. Business relationships: (List all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution within the last 
5 years.)

    Current:

        Director, Bliley Technologies, Inc.
        President and Director, The Snelling Company.
        President and Director, Western Lehigh Valley Corporation.
        Chairman, Thousand Islands Marine and Island Service, Inc.

    Prior:

        Director, NEPA Management Business Trust, 1985-2005.
        Director, Axicom Technologies, Inc., 1997-2005.
        Trustee, Lehigh Valley Hospital/Lehigh Valley Health Network, 
        Inc., Allentown, Pennsylvania--1982-2002; Treasurer--1986-1991.

    11. Memberships: (List each membership you have had during the past 
10 years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age or handicap.)

    Current:

        National Museum of Industrial History, Bethlehem, PA--Director.

        Council of The Pennsylvania Society, Sellersville, 
        Pennsylvania--Secretary 1993-1995; First Vice President 1995-
        1997; President 1997-2000.

        The Franklin Institute, Philadelphia, Pennsylvania.

        American Association for the Advancement of Science, 
        Washington, D.C.

        Merion Cricket Club, Haverford, Pennsylvania.

        Grenadier Island Country Club, Ltd., Ontario, Canada--Past 
        President.

        Lehigh Country Club, Allentown, Pennsylvania.

        The Princeton Club, New York, New York.

        The Athenaeum of Philadelphia, Philadelphia, Pennsylvania--
        Director.

        Foundation for the Advancement of Monetary Education, New York, 
        New York--Trustee.

        Cedar Crest College, Allentown, Pennsylvania--Trustee 1974-
        1997; Treasurer 1985-1997; Life Trustee since 1997.

        The Antique Boat Museum, Clayton, New York--Trustee since 1978; 
        Chairman 1998-2000.

    Prior:

        Educational Ventures, Inc., Allentown, Pennsylvania--1982-2002; 
        Treasurer 1986-1991.

        Allentown Art Museum, Allentown, Pennsylvania--Trustee.

        Allentown Economic Development Corporation, Allentown, 
        Pennsylvania--Director.

        Allentown-Lehigh County Chamber of Commerce, Allentown, 
        Pennsylvania--Director.

        Allentown-Lehigh County Chamber of Commerce Issues Committee--
        Member.

        Muhlenberg College, Allentown, Pennsylvania--Member, Board of 
        Associates.

    12. Have you ever been a candidate for and/or held public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.

        Councilman, city of Allentown, Pennsylvania--elected 1969 (4-
        year term).

        President, Allentown City Council--elected annually, 1970-1973.

        Member, 1972 Pennsylvania Electoral College.

        Candidate for the Pennsylvania Senate, 1974.

    There is no outstanding debt.

    13. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.
    Republican State Committee of Pennsylvania-elected 1998, reelected 
2000, 2002, 2004 and 2006.

    Amounts in dollars

    2007:

        1,000--Committee to Elect Jim Martin
        1,000--Committee to Elect Maria Dantos
        2,300--Citizens for Arlen Specter

    2006:

        1,000--Friends of Senator Jubelirer
        1,000--Friends of Doug Reichley
        2,000--Citizens for Browne
        1,000--Lehigh County Republican Committee
        2,000--Lynn Swann for Governor
        1,000--Friends of Rob Wonderling
        2,100--Charlie Dent for Congress
        1,000--Green Party of Luzerne County
        1,000--Gerlach for Congress
        1,000--Friends of Karen Beyer
        1,000--DENT PAC
        1,000--Pa. House Republican Campaign Committee
        1,000--Pa. Republican State Committee

    2005:

        1,668--Committee to Reelect Jane Ervin
        4,200--Santorum 2006
        700--Committee to Elect Bob Nyce
        600--Heydt for Mayor
        1,000--Friends of Doug Reichley
        2,100--Charlie Dent for Congress
        1,000--Friends of Rob Wonderling
        500--Jim Gerlach for Congress
        750--Republican Majority for Choice
        1,000--Friends of Karen Beyer
        500--Pa. Senate Republican Campaign Committee
        1,000--Pennsylvania Republican State Committee
        500--Lehigh County Republican Committee

    2004:

        1,000--Friends of Doug Reichley
        1,250--Lehigh County Republican Committee
        576--Citizens for Arlen Specter
        1,100--Friends of Tom Corbett
        1,000--Friends of Joe Peters
        1,000--Committee to Elect Julie Harhart
        1,500--Pennsylvania Republican State Committee
        500--Pennsylvania Picks Jean Craige Pepper
        1,000--Committee to Elect Peg Ferraro
        2,000--Charlie Dent for Congress
        500--Jim Gerlach for Congress
        500--Volunteers for Argall
        500--Pa. Senate Republican Campaign Committee

    2003:

        4,000--Bush-Cheney 2004, Inc.
        1,000--Brian Johnson for Judge
        1,000--Charlie Dent for Congress
        500--Lehigh County Republican Committee
        500--Northampton County Republican Committee
        500--Committee to Elect Jim Martin
        1,000--Pennsylvania Republican State Committee
        500--Lehigh Valley Coalition for Fair Government

    2002:

        2,424--Citizens for Arlen Specter
        1,000--Friends of Brian O'Neill
        1,000--Pat Toomey for Congress
        1,000--Committee to Elect Doug Reichley
        1,000--Committee to Elect Charlie Dent
        1,000--Lehigh Valley Republican Development Group
        1,000--Pennsylvania Republican State Committee
        500--Pa. Senate Republican Campaign Committee

    2001:

        2,500--Committee to Elect Judge R. Simpson
        2,000--Committee to Elect Jane Ervin
        2,000--Pam Varkony for Mayor
        1,000--Pat Toomey for Congress
        1,000--Citizens for Arlen Specter
        1,000--Pa. Senate Republican Campaign Committee
        1,000--Bob Lovett for Mayor
        1,000--Committee to Elect Charlie Dent
        1,000--Fisher for Governor
        1,000--Pennsylvania Republican State Committee
        500--Republican Pro-Choice Coalition
        500--Friends of Renee Cohn
        500--Friends of Judge Eakin

    2000:

        5,000--RNC Presidential Trust
        2,000--Gruppo for State Representative
        1,500--Citizens for Browne
        1,500--Citizens for Mark Mitman
        1,500--Pa. Senate Republican Campaign Committee
        1,000--Governor Ridge Leadership Circle
        1,000--Friends of Mike Fisher
        1,000--WISH (Women in Senate and House)
        1,000--Committee to Elect Robert Saurman
        1,000--Friends of Barbara Hafer
        1,000--Pennsylvania Republican State Committee
        1,000--Voices for Varkony
        500--Committee to Elect Julie Harhart

    1999:

        2,000--Governor George W. Bush Presidential Exploration 
        Committee
        2,000--Jim Martin for District Attorney
        2,000--Pat Toomey for Congress
        1,000--Pennsylvania Republican State Committee
        1,000--Friends of Giuliani
        1,000--Pam Varkony for City Council
        500--Sam Katz for Mayor
        500--Blaschak for City Council
        500--Pa. House Republican Campaign Committee
        500--Nick Sabatine for County Council

    1998:

        2,050--Pat Toomey for Congress
        2,000--Friends of Governor Ridge
        1,000--Citizens for Joe Uliana
        1,000--Pa. House Republican Campaign Committee
        1,000--Citizens for Arlen Specter
        1,000--Pennsylvania Republican State Committee
        1,000--Friends of Rima Fahl
        650--Committee to Elect Charlie Dent
        500--Friends of Senator Jubelirer
        500--Committee to Elect Bonnie DiCarlo

    1997:

        1,000--Wallitsch for Superior Court
        1,000--Jim Martin for Judge
        1,000--Friends of Governor Ridge
        1,000--Rick Santorum 2000
        1,000--Pa. House Republican Campaign Committee
        1,000--Pennsylvania Republican State Committee
        600--Bill Heydt for Mayor
        600--Friends of Bill Brackbill

    14. Honors and awards: (List all scholarships, fellowships, 
honorary degrees, honorary society memberships, military medals, and 
any other special recognition for outstanding service or achievements.)

        1958--Chosen as one of America's Outstanding Young Men in 
        Business in a national magazine survey.

        1962--Chosen Distinguished Young Man of the Year, Allentown 
        Junior Chamber of Commerce.

        1999--Honorary Doctor of Public Service Degree, Cedar Crest 
        College, Allentown.

    15. Published writings: (List each book, article, column, or 
publication you have authored, individually or with others, and any 
speeches that you have given on topics relevant to the position for 
which you have been nominated. Do not attach copies of these 
publications unless otherwise instructed.)
    I have written regular columns commenting on economic, political 
and social issues, published in the Allentown Morning Call since 1979. 
From 1983 to 1986, I also wrote a weekly column for the Bethlehem 
Globe-Times.
    I have not made any formal speeches other than in my 2003 and 2006 
confirmation hearings before this Committee. Other speeches I have 
delivered have been extemporaneous, and neither the text nor the notes 
for such remarks exist.
    16. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
    My 2003 and 2006 confirmation hearing before this Committee.
    17. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    Extensive experience with aviation. I am a licensed pilot and hold 
land, single-and multi-engine, and instrument ratings, as well as a 
glider's license. I have been a pilot for more than 50 years and have 
about 6,000 hours of total time. I owned and operated my own aircraft 
for about 50 years. I was appointed by Governor Tom Ridge as Chairman 
of the Pennsylvania Aviation Advisory Committee, and I previously 
served as a Governor of the Lehigh-Northampton Airport Authority, which 
operates the Lehigh Valley International Airport. I have had extensive 
experience as a board member of private and public organizations, some 
of very substantial size.
    Ronald Reagan Washington National and Washington Dulles 
International Airports are facilities of the greatest importance to our 
Capital and our Nation. I believe I can continue to make a contribution 
to these Airports' well being.
    18. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience to you have in managing a large 
organization?
    My responsibilities as a Member of the Board of the Metropolitan 
Washington Airports Authority is to work with my fellow board members 
to clearly enunciate policy, objectively monitor outcome data in terms 
of how successful we are in achieving our goals, monitor and evaluate 
the performance of our chief executive officer and his staff, and to be 
vigilant in supervising and insisting on the highest level of honesty 
and integrity throughout the organization.
    MWAA has an Audit Committee, on which I serve, which meets 
regularly and is very active. We have a national outside auditor. As 
Chairman of the Finance Committee I have had intimate knowledge of and 
every opportunity to oversee MWAA's integrity.
    19. What do you believe to be the top three challenges facing the 
department/agency, and why?
    (1) Financial management that ensures the Authority's ability to 
provide facilities needed by air travelers at a price which air 
travelers can afford; (2) protecting Washington's airports from adverse 
effects of the financial turmoil in the airline industry; and (3) 
successful undertaking and completion of the rail line from Washington 
to Dulles via Tysons Corner.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts: Not applicable.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation or practice with any business, 
association or other organization during your appointment? No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    All my investments, obligations, liabilities and other 
relationships have been reviewed at the Office of Government Ethics 
(OGE) and at the Airports Authority. We all agree that none presents a 
risk of conflict of interest. A copy of my OGE Form 450 has been 
provided to the Committee.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: I cannot identify any.
    5. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    I have never been paid as an advocate of public policy or 
legislation, nor have I ever been a lobbyist. However, I have in my 
regular newspaper column on politics and economics made public 
pronouncements on all manner of policy issues.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    I would address any potential conflict of interest in accordance 
with the Airports Authority ``Code of Ethical Responsibilities for 
Members of the Board of Directors'', which generally provides for full 
disclosure and recusal for apparent conflicts.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, state, or other law enforcement authority for violation of 
any Federal, state, county, or municipal law, regulation, or ordinance, 
other than for a minor traffic offense? If so, please explain.
    I have never been arrested, charged or held by any Federal, state 
or other law enforcement authority for violation of any Federal, state, 
county or municipal law, regulation or ordinance other than for minor 
traffic offenses. I have no knowledge that I have ever been 
investigated.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    I have very substantial experience as a board member, board 
chairman and manager. I have fully participated in the board 
deliberations and decisions at MWAA. I have a near perfect attendance 
record of board and committee meetings. I have chaired the Finance 
Committee, a key MWAA committee. I now chair the Planning and 
Construction Committee and I sit on other committees of substantial 
import, as, for example, the Compensation Committee.
                     d. relationship with committee
    1. Will you ensure that your board/commission complies with 
deadlines for information set by Congressional committees?
    To the extent it is within my power as one of thirteen Directors.
    2. Will you ensure that your board/commission does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures?
    To my knowledge, this has not been an issue at the Airports 
Authority, but I would want to make sure that such witnesses and 
whistle blowers did not suffer reprisals.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Certainly.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so?
    I have always been willing to appear and testify on such occasions, 
and will remain so.

    The Chairman. I thank you very much, Mr. Snelling.
    I presume that the lovely lady, back of you, is your wife?
    Mr. Snelling. That is--of 56 years--Adriane Snelling.
    The Chairman. Sixty-six years?
    Mr. Snelling. Fifty-six.
    The Chairman. Fifty-six? I'm 1 year ahead of you.
    [Laughter.]
    Mr. Snelling. Well, it gets better every year.
    The Chairman. Mr. Snelling, if you don't mind, we'll have a 
short recess. Senator Specter wishes to be here to say a few 
words--kind words about you, but he's caught up in traffic at 
this moment.
    Mr. Snelling. I certainly understand, and I think it's very 
nice of the Senator to come.
    The Chairman. With that thought, we'll have a short recess.
    Mr. Snelling. Thank you, sir.
    [Recess.]
    The Chairman. Will the hearing please come to order.
    The Committee is most pleased to welcome the gentleman from 
Pennsylvania, Senator Specter.

               STATEMENT OF HON. ARLEN SPECTER, 
                 U.S. SENATOR FROM PENNSYLVANIA

    Senator Specter. Thank you very much, Mr. Chairman. It's 
always a great pleasure to appear before you, Mr. Chairman--
Senator Inouye. I've enormously enjoyed our long association 
and friendship together in the U.S. Senate. Of course, compared 
to you, I'm a newcomer. I've only been here 27 years, which 
doesn't measure up too well to your 38--37, 39----
    The Chairman. Forty-nine.
    Senator Specter. Forty-nine? Just one digit off, Mr. 
Chairman.
    I have the honor today, Mr. Chairman, to introduce to the 
Committee Mr. Charles Snelling for reappointment to the Board 
of Directors of the Metropolitan Washington Airports Authority. 
I've known Mr. Snelling for more than two decades, and can 
personally attest to his integrity, his ability, and his public 
service.
    Of direct relevance to serving on the Metropolitan 
Washington Airports Authority is his extensive experience in 
the field of aviation. He is a licensed pilot. He has served on 
the board of directors for the Authority since 2003, when he 
was originally nominated by President Bush and confirmed by the 
Senate. He was appointed, in 2000, by Pennsylvania's Governor 
Tom Ridge, to be a member and chair of the Pennsylvania 
Advisory Committee. He had served as the--on the board of 
directors of the Lehigh-Northampton Airport Authority, which 
operates the Lehigh Valley International Airport.
    He has a very extensive record in the business community. 
He is President and Director of the Snelling Company and 
Western Lehigh Valley Corporation, a trustee of the Northeast 
Pennsylvania Management Trust, and a director of the Wiley 
Technologies, former president of the City Council of 
Allentown, served as trustee on the Lehigh Valley Hospital 
Health Network, 5 years in that capacity.
    And I would ask unanimous consent to insert a formal 
statement into the record.
    The Chairman. Without objection, so ordered.
    [The prepared statement of Senator Specter follows:]

      Prepared Statement of Hon. Arlen Specter, U.S. Senator from 
                              Pennsylvania
    Mr. Chairman, I am pleased to introduce to the Committee Mr. 
Charles D. Snelling as a nominee for reappointment to the Board of 
Directors of the Metropolitan Washington Airports Authority. Mr. 
Snelling has exemplary aviation, business and leadership qualifications 
that I believe make him a nominee worthy of confirmation.
    Mr. Snelling is a licensed pilot with extensive experience in the 
field of aviation. He has served aptly on the Board of Directors for 
the Metropolitan Washington Airports Authority since 2003, when he was 
originally nominated by President Bush and confirmed by the U.S. 
Senate. Additionally, Mr. Snelling was appointed in 2000 by 
Pennsylvania Governor Tom Ridge to be a member and Chair of the 
Pennsylvania Aviation Advisory Committee, on which he served until 
2003. Prior to this service, Mr. Snelling served on the Board of 
Governors of the Lehigh-Northampton Airport Authority, which operates 
the Lehigh Valley International Airport.
    Mr. Snelling's business experience includes founding Cryo-Therm, 
Inc., an applied thermodynamics company that pioneered a number of 
energy conversion systems and processes that were utilized by both 
military and industry and resulted in Mr. Snelling holding over 20 
issued patents. Mr. Snelling has also achieved remarkable success in 
the field of private venture capital, real estate development and 
agriculture. He is founder and director of a family of venture funds 
that is widely regarded as leading start-up venture investors.
    In addition to his aviation and business achievements. Mr. Snelling 
is also a leading political and civic figure. In 1976, he was appointed 
by President Ford to the President's Commission on Personnel 
Interchange and in 1990 he was appointed to serve on the U.S. Small 
Business Administration's National Advisory Committee. He has also 
served as President of the City Council of Allentown (PA), Chairman of 
the Republican Finance Committee of Pennsylvania and delegate to the 
Republican National Convention. Presently, he serves on the 
Pennsylvania Republican State Committee. Mr. Snelling's civic 
experience includes service as a Life Trustee of Cedar Crest College in 
Allentown, PA; a trustee of the Foundation for the Advancement of 
Monetary Education; and past president of the Pennsylvania Society, to 
name a few.
    Mr. Chairman, the Nation's air transportation system is a vital 
asset that must be properly managed to ensure its safety and 
efficiency. Our nation's airports, including those managed by the 
Metropolitan Washington Airports Authority, will face enormous 
challenges meeting projected increases in congestion and passenger 
demand in the near future. Mr. Snelling has the experience and 
leadership qualities to help meet these challenges, and I support his 
nomination and prompt confirmation by the U.S. Senate.

    Senator Specter. He appeared before this Committee last 
year, and was reported out to the floor. And it is always hard 
to see what happens there, but there was a hold, and we don't 
know exactly why. This is something that I have communicated to 
the Chairman about before. And it's my hope that we'll be able 
to move his nomination through the Committee, and move it 
through the floor, so that he can take his position on this 
Authority, where I think he can perform very, very valuable 
public service.
    I thank the Chair for scheduling this hearing. I would have 
been here earlier, but we are struggling to get a quorum in the 
Judiciary Committee, where, as the Chairman knows, I am ranking 
member. We had judges to report out, so that that occupied me 
at 10 o'clock. But I came over as soon as we had finished the 
judicial business.
    Thank you, Mr. Chairman.
    The Chairman. The Committee is always pleased to have the 
gentleman from Pennsylvania here. Your words are always valued, 
and your recommendation will be carried out.
    If you'll just wait a few seconds, the record will show 
that no one has voiced an objection to the nomination of Mr. 
Snelling. And so, without objection, the nomination is 
approved, and it will be reported to the Senate forthwith.
    Thank you very much. The hearing is adjourned.
    [Whereupon, at 10:31 a.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
